<html>
<title> - EXAMINING LESSONS LEARNED FROM OPERATION DAKOTA PEACEKEEPER</title>
<body><pre>[Senate Hearing 111-229]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-229
 
      EXAMINING LESSONS LEARNED FROM OPERATION DAKOTA PEACEKEEPER

=======================================================================




                             FIELD HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 1, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
54-394                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
_____, _____
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 1, 2009.....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Thune.......................................     3

                               Witnesses

His Horse Is Thunder, Hon. Ron, Chairman, Standing Rock Sioux 
  Tribe; accompanied by Michael Hayes, Acting Chief of Police, 
  Standing Rock Agency, Bureau of Indian Affairs, U.S. Department 
  of the Interior................................................    11
    Prepared statement...........................................    14
Marcellais, Hon. Richard, Chairman, Turtle Mountain Chippewa 
  Tribe..........................................................     8
Packineau, Mervin, Northeast Segment Representative/Treasurer, 
  Three Affiliated Tribes--Tribal Business Council...............     9
Pearson, Hon. Myra, Chairwoman, Spirit Lake Dakotah Nation.......     3
    Prepared statement...........................................     6

                            Other testimony

Gipp, David M., President, United Tribes Technical College.......    32
    Prepared statement...........................................    33
Hill, Valerie, Enrolled Member, Standing Rock Sioux Tribe........    37
Jandreau, Hon. Michael, Chairman, Lower Brule Sioux Tribe........    37
Schott, Hon. Arnold, Mayor, McLaughlin, SD.......................    30
Yonon, Danielle, Director of Resource Development, Grand River 
  Area Boys and Girls Club.......................................    35
Zuger, Hon. William, Chief Judge, Standing Rock Sioux Tribal 
  Court..........................................................    30

                                Appendix

Crow Creek Sioux Tribal Council Members: Randy Shields, Sr., 
  Thomas Thompson, Sr. and Norman Thompson, Sr., prepared 
  statement......................................................    48
Medrud, Gerald A., Chief of Police, BIA, letter, dated June 30, 
  2009 to Hon. Richard Marcellais................................    41
Two Bulls, Theresa, President, Oglala Sioux Tribe, prepared 
  statement......................................................    43


      EXAMINING LESSONS LEARNED FROM OPERATION DAKOTA PEACEKEEPER

                              ----------                              


                         THURSDAY, JULY 1, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Fort Yates, ND.
    The Committee met, pursuant to notice, at 9:00 a.m. at 
Sitting Bull College, Fort Yates Campus, Standing Rock Sioux 
Reservation, Fort Yates, North Dakota, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Which of you is the best singer?
    [Three responded ``that would be me.'']
    [Laughter.]
    The Chairman. But they are a great group of people and we 
are really pleased that they are here. Why don't you proceed? 
The Riverside Drum Group.
    [Musical presentation.]
    The Chairman. Let me thank the Riverside Drum Group. And 
let me also thank the Standing Rock Vietnam Vets for posting 
the colors today.
    As I indicated to you, I am joined today by Senator Thune. 
He is from South Dakota. This reservation, of course, straddles 
the border of North and South Dakota, and Senator Thune and I 
have worked together, along with many of our colleagues, on a 
wide range of issues relating to law enforcement, water issues, 
education, health care and more, on Indian reservations.
    I want to just mention as we start that Mr. Dan English is 
here on Senator Thune's staff. I have Mr. John Harte, who is 
the Policy Director of the Indian Affairs Committee, with me. 
John has been all across the Country consulting with Indian 
tribes on the Indian law enforcement bill that we have now put 
together. I think we have 17 co-sponsors, somewhere in that 
range. Bi-partisan co-sponsorship in an attempt to try to 
address nationally this issue of Indian law enforcement issues.
    Let me also mention that Standing Rock tribal judge, Judge 
Zuger is with us. Thank you, Judge, for being here.
    We were here last August to talk about what was happening 
with respect to Operation Peacekeeper, the Dakota Peacekeeper 
operation, here in this area. We had violent crime rates of six 
and eight times the national average on this reservation, 
violent crime rates of double and triple on the other 
reservations in North and South Dakota. We have worked with the 
Bureau of Indian Affairs where they had somewhere around 25 to 
30 officers coming and leaving, back and forth, so that we had 
a larger force of law enforcement officers here on this 
reservation during that period.
    Our understanding from that is that we had a substantial 
amount of progress in reducing violent crime on this 
reservation. It was significant. That is not surprising, 
because if you have nine or ten or twelve law enforcement 
officers to parol 24 hours a day, 7 days a week, on an Indian 
reservation the size of the State of Connecticut, it is 
impsosible to do. We have, Senator Thune, myself and our 
coleagues, have heard stories of people calling for emergency 
help because a crime is being committed, but law enforcement 
would show up six hours later or the next day, because they 
simply can't deal with that amount of space spread out over an 
area the size of the State of Connecticut, on this reservation. 
And it is true of many reservations.
    So the question is, what are we going to do about that? 
Well, we know what was done temporarily. And we know that 
worked. We know that it worked because a larger presence of law 
enforcement officials, properly trained, doing the work, 
working through a court system and so on, that law enforcement 
system works if you have the right people, trained the right 
way, to provide law enforcement on these reservations.
    So we are here again to get an update of what has happened 
since that time. I know that most of those temporary law 
enforcement officials have been withdrawn. We now are back to a 
much, much lower level of law enforcement on this reservation. 
We are going to talk today about that and what the experience 
has been. I also know that in the first couple of months this 
year, there has been some increase in violent crime. So it is 
clear to me that the Federal Government has responsibilities. 
It is clear to me the Federal Government is not meeting those 
responsibilities.
    That is why a group of us have put together a law 
enforcement bill that will begin to address the issue of 
declination by U.S. attorneys. Declining to prosecute is a very 
serious issue. Just the sheer number of law enforcement people 
that are available in the BIA, an agency that has promised to 
provide law enforcement protection, that is a significant 
issue.
    So we are going to work through all of those. But today we 
want to listen to you.
    Senator Thune and I have to leave at about 10:30. So what 
we would like to do is hear from a group of witnesses, in this 
case the tribal chairs from four reservations. Then we would 
like to have an open mic period. I know that the mayor of 
McLaughlin is here, and we may have others who wish to stand up 
and speak. We will be happy to entertain that. I would also 
keep open for two weeks following today the hearing record, so 
that anyone who wishes to submit written material, that will 
become a part of the permanent hearing record as well.
    Senator Thune, thank you for joining us. Let me give you 
the microphone for an opening comment.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and I want to 
express my appreciation to you for your leadership on this 
important issue as the Chairman of the Indian Affairs Committee 
in the Senate, as well as serving on the Appropriations 
Committee, following through and making sure that there is a 
funding commitment to some of these priorities as well.
    As you said, we were here a year ago. Since that time, 
there has been some significant progress made with respect to 
getting an infusion of additional law enforcement personnel, 
manpower, resources out here on Standing Rock. I think it had 
the desired effect, if you talk to most of the folks here.
    But my fear is that like so many policy initiatives that we 
start in Indian Country, it has a stop-start type practice to 
it. In other words, we start something but we don't finish it. 
I think it is important that the commitments that have been 
made be carried out.
    I am very interested in some of the charts here that you 
talked about the violent crime rate and the crime rate as a 
percent of the national average in some of our reservations. So 
many of those are here in the upper plains. And so many of the 
deficits with regard to the number of officers needed are here 
in the upper plains. I think those are some questions that we 
need to visit with the BIA about as well, in terms of how they 
allocate these resources that are coming in and how they 
prioritize about where they put the additional manpower and 
resources.
    But I am very pleased to be able to be back, and of course, 
anxious to hear from our panels today, the leaders. I have read 
Chairman His Horse Is Thunder's testimony and am interested in 
asking some questions of him and others on the panel when I get 
the opportunity. But I just want to again acknowledge that some 
of the steps that have been taken I think have yielded great 
results. But I also think that if we don't continue on that 
path and continue that commitment, we are going to see some of 
the gains that have been made reversed. I think that would a 
big mistake. So I am looking forward to the testimony and 
asking some questions.
    Thank you, Mr. Chairman.
    The Chairman. Senator Thune, thank you very much.
    We are joined by three tribal chairs and a senior member of 
the tribal council of another tribe. We are going to begin 
today with Chairwoman Pearson from the Spirit Lake Nation. 
Chairman His Horse Is Thunder is of course the host here today, 
but he has requested that he follow the others. So we will 
honor that request.
    Chairwoman Pearson, thank you for being here. The full 
statements of all the witnesses will be made a part of the 
permanent record and we will ask that all of you summarize. I 
believe that each of you would have something you can pass 
along here in terms of some projection. So why don't you 
proceed.

STATEMENT OF HON. MYRA PEARSON, CHAIRWOMAN, SPIRIT LAKE DAKOTAH 
                             NATION

    Ms. Pearson. Good morning, Mr. Chairman and members of the 
Committee. I am pleased to be here this morning to be given 
this opportunity to continue our dialogue on tribal justice 
issues.
    I have been asked to provide testimony on the public safety 
issues on Spirit Lake Reservation. In 2007, the Spirit Lake 
Tribe completed a community-wide assessment and strategic plan 
to identify and prioritize issues facing our communities and to 
strategize about the best practices to enable us to address 
those issues. During that effort, the tribal courts, law 
enforcement services and emergency management were all 
identified as priority areas for development and enhancement.
    The Tribe has continued a dialogue with the Bureau of 
Indian Affairs for decades. The blatant deficiencies with 
respect to law enforcement and tribal justice as a whole remain 
unresolved. And in many respects, the issues have compounded 
over the years. Tribal justice issues, like so many other 
issues in communities across this Country, requires a 
comprehensive approach to resolution and not a temporary fix. 
To truly have a comprehensive approach, tribes need adequate 
funding, services and support in relation to tribal courts, law 
enforcement, detention, addiction counseling, mental health 
services and other related support services.
    The tribal justice issues that face our communities, our 
community lacks an adult detention facility. The detention 
facility at Spirit Lake has for many years operated in a manner 
that is comparable to a third world country. Outdated 
technology, inadequate facilities and overcrowding have 
resulted in public outcry. The conditions in many tribal jails 
would not be tolerated elsewhere, but it is all that the tribes 
have to assist in maintaining some sense of law and order.
    The BIA is responsible for the maintenance of the existing 
facility, but has opted to allow the building to fall into such 
a state of disrepair that currently, the BIA has plans for the 
facility to be closed and to enter into a contract with an 
existing State facility. From the tribe's position, housing our 
prisoners off the reservation creates a huge problem with 
respect to our sovereignty. When prisoners are housed in off-
reservation facilities, it interferes with our court process 
and it creates a transportation problem with subjecting the 
people to laws outside the jurisdiction of our reservation for 
any problems that might arise during incarceration.
    It is unclear how prisoners will be transported in a timely 
fashion to and from the court and eh detention facility in the 
state when the transport would require a minimum of 30 miles 
round trip, and the local law enforcement transport van is an 
eight-passenger vehicle. Equally troubling is the fact that 
this is a situation that has essentially been created by the 
BIA and it has come to fruition that the Tribe has secured 
funding to provide necessary improvements, but the BIA has 
planned to close the facility.
    We need a juvenile detention facility. In recent years, one 
of the biggest problems for our juvenile court has been the 
lack of juvenile detention. The Tribe has been forced to either 
go without detention or utilize State facilities that are 
generally ineffective in meeting the needs of troubled youth. 
Additionally, there is a significant lack of service-based 
programs that can serve as an alternative to detention as well. 
The tribe has essentially had our sovereignty eroded by an 
agency that is to be carrying out a trust responsibility which 
flies in the face of basic principles of law.
    Officer shortages have plagued the tribal justice system at 
Spirit Lake for many years, resulting in slow response time, 
inadequate investigations, and reports of a number of related 
problems. It has gotten to the point that many people are not 
even reporting criminal activity, as they have no faith in 
anything that will be done to help them. The tribe has engaged 
the BIA in a dialogue about these issues for decades, but the 
response has been slow and inadequate at best. Generally, the 
response from the BIA has been to detail officers from other 
reservations to reduce the outcry. However, this not only 
creates shortfalls on other reservations, but it is a very 
short-term response to a long-term problem.
    Lack of training. It is imperative that the officers who 
are providing law enforcement services on the Spirit Lake 
Reservation be adequately trained for both their safety and for 
the safety of the community. It is alarming that BIA officers 
are expected to respond to often volatile crimes such as 
domestic violence with little or no backup. This creates a 
dangerous situation, not only for the officers, but also for 
the victims on the scene.
    Our tribal courts. I cannot discuss safety issues in our 
community without highlighting the lack of support and 
financial resources for our tribal court. To say that our court 
functions on a skeleton crew is an understatement. I am not 
aware of any Federal, state or municipal court that could 
function with the personnel, training and technological 
deficiencies that exist within our tribal court. For instance, 
we have a prosecutor, but no funding for a public defender.
    While the Indian Civil Rights Act does not mandate a public 
defender, our sovereignty is constantly under threat in the 
Federal court system because we do not provide publicly-funded 
defense counsel. Not to mention that Federal law, such as the 
Adam Walsh Act only provide for recognition of tribal court 
convictions where a public defender was available. These are 
the types of corners that we as tribes are backed into within 
the current legal scheme and with current funding and service 
deficiencies.
    In closing, I have reviewed the Field Hearing Report from 
August 4, 2008, regarding the Dakota Peacemaker Operation that 
was implemented on the Standing Rock Reservation. I am 
encouraged by the fact that it provides a model and an example 
of how peace can come to the tribal communities with the proper 
support. My only concern rests with the means used by the BIA 
to carry out the project, in that the officers detailed to 
Standing Rock were from surrounding tribal communities. The 
result is that communities such as Spirit Lake are left with 
the same sense of despair and fear that the people of Standing 
Rock have also reported. Constituents have even reported to me 
that they are considering purchasing firearms to provide some 
peace of mind.
    In my opinion, the approach that the BIA has taken in 
addressing justice issues in tribal communities has 
demonstrated that the agency is completely out of touch with 
Indian Country and that there are far too many people climbing 
the ranks, collecting large salaries and leaving field offices 
ill-equipped to meet the needs of the communities they are 
supposed to be serving. I appreciate the Committee's efforts to 
tackle the justice issues that are plaguing many tribal 
communities. I would strongly encourage the Committee and the 
United States Congress to also take a hard look at the upper 
level administration within the Bureau of Indian Affairs. 
History demonstrates that a community will be as strong as its 
leader, and I believe the same is true for the agencies such as 
the BIA.
    With that, I want to thank you gentlemen for listening to 
me. I will be happy to answer any questions, or I will try to 
answer any questions that you may have.
    Thank you.
    [The prepared statement of Ms. Pearson follows:]

   Prepared Statement of Hon. Myra Pearson, Chairwoman, Spirit Lake 
                             Dakotah Nation
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Chairwoman Pearson, thank you very much for 
your testimony.
    Next we will hear from Chairman Richard Marcellais, who is 
the Chairman of the Turtle Mountain Reservation.

STATEMENT OF HON. RICHARD MARCELLAIS, CHAIRMAN, TURTLE MOUNTAIN 
                         CHIPPEWA TRIBE

    Mr. Marcellais. Thank you, Senator Dorgan, Senator Thune, 
for being here today. And I want to thank the Chairman for 
allowing me this opportunity to present the law enforcement 
issues at the Turtle Mountain Indian Reservation.
    Some of the issues that Chairwoman Pearson mentioned are 
similar and identical to what's going on in Turtle Mountain. A 
couple of weeks ago, I received a call from our jail director 
saying that our jail was going to close up. So that was a big 
issue to start with. I notified Senator Dorgan's staff and they 
got on it right away. So we did get some answers and our jail 
is going to stay open.
    They were talking about transferring our prisoners to, 
actually, Standing Rock. I tried to get hold of the Director, 
Mr. Ragsdale, and couldn't get a response. So I followed up 
with a call to Senator Dorgan's aides, and they got me some 
answers right away and put a hold on that issue.
    The jailer told me that what happened was, they were 
looking at utilizing some of the other State facilities and 
also the BIA facilities in the State for prisoners. Actually, I 
thought about it, it would cost more and it wasn't beneficial 
to the Bureau of Indian Affairs.
    I guess one of the other issues I want to talk about is 
recruitment and personnel. Currently, we have five officers at 
Turtle Mountain, and we should have 20 officers. When I talked 
to the chief of police up there, he said that he's got 
positions available and he's been advertising. But it takes so 
long to go through the personnel process to get these positions 
filled. And if you don't have the human resources, naturally 
you are going to have problems with crime on a reservation. 
Just seeing officers out there in the communities is beneficial 
to the overall reservation.
    The other thing we are looking at is, we are working with 
our housing authority and we have security officers out there, 
we are looking at a community protection awareness program. And 
we are going to start identifying individuals in the housing 
communities to be on this committee and report things that are 
going on in these housing projects. Because Native Americans 
for years have lived out in the rural communities, and they are 
not used to being in housing projects. I think that is some of 
the problems that we have, is when you put Native Americans all 
in a housing project, then your crime goes up.
    I want to thank you again for being out here. Thank you 
very much.
    The Chairman. Chairman Marcellais, thank you very much as 
well.
    Let us call on Mervin Packineau, who is a tribal council 
member of the Three Affiliated Tribes.

STATEMENT OF MERVIN PACKINEAU, NORTHEAST SEGMENT REPRESENTATIVE 
AND TREASURER, THREE AFFILIATED TRIBES--TRIBAL BUSINESS COUNCIL

    Mr. Packineau. First of all, I want to say thank you to 
Senator Dorgan and Senator Thune for coming to the heart of 
Indian Country to hear our concerns on law enforcement. I also 
want to commend you on your dedication to help us overcome the 
obstacles here on our reservations.
    My name is Mervin Packineau. I serve as elected northeast 
segment representative and treasurer of the Three Affiliated 
Tribes Tribal Business Council. I also serve as the Judicial 
Committee Chairman under whose responsibility law enforcement 
falls. I would like to thank Senator Dorgan and his staff for 
allowing me the opportunity and honor to be with you here today 
and present some brief comments on law enforcement in Indian 
Country, and the issues that we face on the Fort Berthold 
Reservation.
    The Three Affiliated Tribes has recently undertaken a 
momentous task, one that many tribes around the Country have 
also undertaken in our collective pursuit of self-sufficiency 
and self-reliance. The contracting of law enforcement on the 
Fort Berthold Reservation has not been without difficult or 
reward. We have faced our share of growing pains and continue 
to face a very steep learning curve in ensuring the people and 
lands of the Mandan Hidatsa and Arikara and protected to the 
fullest extent possible.
    One of the major obstacles we in Indian Country face is a 
severe lack of funding for law enforcement. Prior to 
undertaking the 638 law enforcement contract, we supplemented 
the BIA law enforcement in equipment, staff and actual funds in 
order to provide 24-hour policing to our sig segments and 
almost 1,500 square miles that make up the Fort Berthold 
Reservation. Yet in undertaking this contract, we face severe 
funding shortfalls to not only adequately staff our police 
force, but to train, equip and house our officers and their 
families.
    Technical assistance is another obstacle that severely 
hinders tribes that choose to 638 contract law enforcement from 
the Bureau of Indian Affairs. In order to undertake the duties 
and responsibilities of law enforcement, we have to create, 
operate and maintain a program that is almost a mirror image of 
a BIA law enforcement department. What appears to be lost upon 
our Federal trustee is while the tribes themselves have the 
primary responsibility to ensure their programs are in 
compliance, there is an equal duty on the BIA and our Federal 
contracting officers to assist the tribes in operating our 
programs to be in compliance with our individual 638 contracts.
    The BIA's role is not restricted to mere oversight, but the 
BIA's duty to provide compliance and technical assistance 
should supersede its oversight responsibilities as the BIA has 
just as much responsibility in ensuring tribes succeed in 
establishing its own tribal law enforcement as the BIA would 
providing those same services on our reservations.
    A lack of housing on Fort Berthold continues to be an issue 
in attracting qualified individuals to serve as law enforcement 
officers in our police force. The 638 law enforcement contract 
lacks basic resources or funds for sufficient housing. This 
makes it extremely difficult for our tribes to not only recruit 
law enforcement officers, but to keep those officers and their 
families in our communities.
    One specific issue that we have faced on Fort Berthold 
concerns background checks on candidates for law enforcement 
positions in our police force. While we recognize the 
regulatory requirements for adequate background checks, it is 
our position that the BIA's ``insistence'' that we use the same 
vendors that complete the background checks for their officers 
creates a huge and unnecessary delay for our tribal police 
departments. Not only does that severely limit the 
effectiveness of our officers who cannot adequately enforce all 
laws, Federal and tribal, on our reservations, but puts those 
tribes under tremendous potential liability. Tribal officers 
who have not had their background checks completed and 
therefore have not received their Federal commissions are not 
covered under the Federal Torts Claim Act, but under our own 
tribal liability insurance. This affects not only the tribe and 
its officers, but also the public at large, should an 
unfortunate accident occur, and sufficient insurance protection 
is not available.
    The issues I have raised represent only a small fraction of 
what we and other tribes face when we contract the Federal 
responsibility to provide law enforcement on our reservations. 
Whether is it providing more Federal fund and resources to the 
tribes, to providing technical assistance for joint/cross-
deputization agreements with local and State governments to 
ensure that everyone is protected on our lands, whether Indian 
or non-Indian, law enforcement within Indian Country simply 
needs more.
    Above all, it is imperative that whatever assistance is 
provided to our law enforcement programs, it must be undertaken 
to promote our self-sufficiency and self-reliance and not 
hinder it. Everyone in this room, our distinguished Senator and 
his staff, the tribal leaders and tribal staff members, and the 
Federal officials present, everyone here has the responsibility 
that Indian Country not be isolated from the most basic of 
rights: the right to live in a safe and protected community.
    I thank you for your time and attention.
    The Chairman. Councilman Packineau, thank you very much.
    Finally, we will hear from the Tribal Chairman of the 
Standing Rock Reservation, Ron His Horse Is Thunder. Ron is 
also accompanied by the Standing Rock Chief of Police, Michael 
Hayes. Mr. Hayes, welcome.
    Mr. Chairman, why don't you proceed?

          STATEMENT OF HON. RON HIS HORSE IS THUNDER, 
  CHAIRMAN, STANDING ROCK SIOUX TRIBE; ACCOMPANIED BY MICHAEL 
HAYES, ACTING CHIEF OF POLICE, STANDING ROCK AGENCY, BUREAU OF 
                     INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. His Horse Is Thunder. Thank you, Mr. Chairman.
    First, I want to say thank you for having this hearing, 
again, on Standing Rock. You were here last year, Senator 
Thune, you were here as well. I welcome you both back and thank 
you for having great concern on this issue, because it is an 
issue that does impact our reservation greatly, as well as the 
other reservations, as you heard from the prior witnesses from 
the respective reservations.
    Last year, we had a police surge here. And the police surge 
went up to 37 officers. And I reported last year in my 
testimony the impacts of that surge and how it made a profound 
difference in the safety and the well-being of our reservation. 
As you know, and as everyone else is quite aware of as well, 
too, that in order to address the poverty level, the remoteness 
of our area, that in order for us to start growing as a nation 
that public safety is part of that growth. It is absolutely 
necessary. You can't have growth unless you have good public 
safety.
    So last year, with the surge, the number of arrests that 
were made, the police presence that was here, the officers who 
actually walked the streets and talked to our children made a 
huge difference. Unfortunately this year, that surge number is 
actually, those officers are gone. And during the surge all the 
data that they collected showed that there was in fact need for 
25 officers or actually 32 officers on the reservation.
    The Bureau of Indian Affairs did increase the number of 
slots for our Reservation up to 25. However, they have not been 
able to fill those 25 slots. Today I believe we have 13 
officers, and in fact, the number of officers, 13 is less than 
we had prior to the surge. So that is an unfortunate thing, 
that we have a surge that brings the number of officers up, 
then we go back down to less numbers than we had prior to the 
surge. I am thankful to the Bureau for actually bringing the 
number up to 13, because when I first took office three and a 
half years ago, the number of police officers actually in the 
field here were five. So we have more than doubled the amount 
of officers in four years, but even according to Bureau 
statistics we aren't even close to where we should be in terms 
of number of officers.
    It has had a profound effect in terms of reduction from the 
surge numbers now down to having 13 police officers in the 
field. We see that today unfortunately in the number of 
suicides that this community has seen since January. We have 
had 9 suicides on this reservation with approximately 51 
attempts. And we ask ourselves why are our children killing 
themselves. We know there are a multitude of reasons.
    But one of the reasons we believe is part of these attempts 
and the suicides is that our children do not feel safe, and in 
fact, in many instances, aren't safe; that having adequate law 
enforcement on the reservation does affect our children and how 
they feel about themselves. I honestly believe that had we 
maintained the number of officers at 37 or at least 25 that we 
wouldn't have had as many attempts as we have had thus far this 
year.
    Having a large police presence is not the only answer, but 
it is definitely part of the answer. I won't go into more in 
terms of the impacts of the operation as far as Peacekeepers, 
because we know that it had a profound positive effect. But we 
do believe that the goals of the temporary surge should be the 
goals of policing by BIA on our reservations every day, and not 
just simply a surge, but they should be our every day goal.
    I have been asked whether I support the return of the six-
month surge on Standing Rock. I do, absolutely. But it must not 
only be for our reservation, it must be for all reservations in 
those areas where crime is at a high rate, and the statistics 
bear out that the highest crime rates in this Country are in 
the Great Plains and the Rocky Mountain Region. We definitely 
need to have our numbers go up.
    Part of what we believe is the problem, and I want to focus 
not just on the problem but also a solution. What do we believe 
is the solution? I gave a list of solutions last year, and I 
don't think we have had a report on whether or not the Bureau 
of Indian Affairs has paid heed to those solutions. We know 
that Congress in 2008 and 2009 had increased the appropriations 
for the Bureau of Indian Affairs to the tune of an additional 
$15 million. What's unclear to us, though, is how the Bureau of 
Indian Affairs actually allocated those additional resources. 
It appears to us the Bureau of Indian Affairs does not have a 
systematic methodology for distributing these public safety 
funds, including money for detention facilities and 
investigators.
    We don't understand why the BIA does not rely on its own 
data in terms of where high crime rates are at to use that data 
to fairly distribute those dollars. They haven't shown us how 
they have distributed. Obviously we in the Great Plains and 
Rocky Mountains don't get enough of that additional 
appropriations.
    On top of that, the Bureau of Indian Affairs does not 
appear to have a successful plan to recruit and retain 
officers. We offered some suggestions last year on how they 
could change that.
    If the BIA increased the full-time law enforcement, and I 
talked about that, up to 25 additional officers, but today they 
only have 13. They continue to fail to fill the 12 additional 
slots that are open. As a result, we have fewer public safety 
officers now than we did last year. Part of the problem, we 
believe, is that there is a waiting list in Artesia. Not only 
is there a waiting list, but if we can get our candidates down 
there, they have to leave their families for four months. We 
have offered suggestions for how they can change that, and that 
is to create another training facility and bring some of their 
trainers from Artesia up to United Tribes Technical College. 
And they haven't done that yet.
    Specifically, as Congress takes up S. 797, the Tribal Law 
and Order Act, we believe it is a priority, absolute priority, 
that the Bureau of Indian Affairs has flexibility in its 
officer training, instead of saying all officers may go through 
Artesia, we suggest that the BIA send trainers from Artesia to 
the Great Plans region and provide classroom and field training 
to State-certified officers. We have State-certified officers 
who are willing to work on reservations. But even though they 
are State-certified, they still have to go down to Artesia for 
16 weeks.
    We also have veterans returning home from the military who 
were military police who are willing to work with the Bureau of 
Indian Affairs. They require them to go down to Artesia. We 
think that is a fundamental failure of BIA.
    I am going to cut this short. The Bureau of Indian Affairs 
received more than $50 million additional dollars in the last 
two years. BIA should be able to provide Indian tribes and 
Congress answers to the following questions: how many officers, 
telecommunications officers and criminal investigators did the 
BIA hire with this money? How many completed training at the 
BIA Academy in Artesia? How many are waiting for training now? 
Where were law enforcement personnel initial assigned by the 
BIA? How many of these individuals are currently at their 
initial posts? How many requested reassignment or left the BIA? 
And most importantly, how did the BIA determine their 
placement? Because obviously we have a great need here in the 
Rocky Mountains, the Great Plains region.
    And we have not seen a large increase in the additional 
numbers of officers here. Obviously, even at Standing Rock, we 
are back to less than pre-surge numbers. So where did these 
initially trained officers go to?
    The same is true concerning information about corrections 
officers and BIA funding for construction, operations and 
maintenance, and O&M for adult and juvenile detention 
facilities. To date, I am not aware of any such report by the 
BIA to Congress or to tribal leaders concerning these matters. 
I would urge that Congress make the above-noted reports a 
mandatory annual requirement of the BIA.
    Thank you, Senator.
    [The prepared statement of Mr. His Horse Is Thunder 
follows:]

Prepared Statement of Hon. Ron His Horse Is Thunder, Chairman, Standing 
                            Rock Sioux Tribe
    Good morning Senator Dorgan and Senator Thune. My name is Ron His 
Horse Is Thunder. I am the Chairman of the Standing Rock Sioux Tribe. I 
want to welcome you both to Standing Rock. I also want to welcome my 
fellow Tribal Chairmen from the Great Plains and Rocky Mountain Regions 
who have joined me here today to speak to you concerning the issue of 
public safety in Indian country.
    I want to thank you both for convening today's hearing and for 
being strong advocates in Congress for the needs of Indian country. You 
understand that Indian tribes cannot reverse the negative impacts of 
poverty and isolation until we provide public safety and other 
essential governmental services to our members on a consistent and 
routine basis.
    Almost one year ago I appeared before the Committee to discuss the 
Tribe's experience with Operation Dakota Peacekeepers, the emergency 
response surge that brought 37 Bureau of Indian Affairs (BIA) public 
safety officers from other reservations to Standing Rock to patrol our 
eight districts and communities. Last year, I reported the positive 
impact of the operation and offered concrete recommendations to secure 
some of the successes of that operation. I attach a copy of last year's 
testimony for the record of today's hearing. Unfortunately, most of the 
recommendations that I offered were not taken by the BIA, and today I 
must report that many of the successes that I touted last year have 
eroded.
A. Need for Comprehensive Holistic Public Safety Program
    I will relate the statistics of the Dakota Peacekeepers Operation 
and where we are faltering today, but at the heart of this matter is 
the failure of all of us, the Congress, the Federal Agencies and yes, 
even the Tribe, to create a comprehensive holistic program to address 
the public safety needs of our community. Nothing demonstrates this 
more drastically than the recent suicides at Standing Rock. Since 
January of this year, we have had 9 suicides and 50 attempted suicides. 
Some may think it inappropriate to discuss suicide in the context of 
public safety. But for me suicide is not only a tragedy robbing us of 
our future, it is the miner's canary--foretelling what lies ahead for 
us as a community and a Nation if we do not act to address our public 
safety needs in Indian country.
    The number of suicides at Standing Rock is 1,000 times the National 
Average among Native Americans. The Center for Disease Control (CDC) 
has said this is an official suicide cluster. Many of those who have 
taken their lives are children-some as young as ten years old. Our 
Executive Director returned from a 14 year old boy's funeral and she 
said it was surreal because there were so many children and balloons 
there. To an outsider, who did not know that our Tribe had lost a young 
life, it might have looked like a child's birthday party, instead of a 
funeral.
    We are trying to understand why our children are killing 
themselves. We believe it is related to a sense of hopelessness that 
people have. They are hopeless about their own futures and that of our 
community. Some of this hopelessness comes from not feeling safe and in 
some cases, not being safe. We as a community have a sacred obligation 
to protect our youngest members. These suicides prompted our elders to 
ask us about the 37 BIA police officers here last year who patrolled 
and interacted with our children, young adults and other residents. 
When we had the larger law enforcement presence people felt safer and 
that gave them hope. Thus, many people feel our return to the pre-surge 
law enforcement staffing levels has had a tragic and devastating impact 
on our community.
    We know that a larger law enforcement presence is not the only 
answer to our problems, but it is part of the answer. So we urge 
Congress to continue its emphasis on funding public safety needs in 
Indian country in a holistic matter. There must be more resources for 
police, criminal investigators, telecommunication operators, 
correctional officers, food service personnel, Tribal prosecutors and 
defenders, resources for the construction of police departments, courts 
and recurring funding for the operation and maintenance of these 
facilities.
    At the same time, however, there must also be Federal funding for 
counselors, child protection caseworkers and supervisors, and resources 
for programs to keep children out of trouble such as funding for the 
Boys and Girls Club of America. These programs provide positive avenues 
to channel the boundless energy of our youth. In this regard, we are 
grateful to the North and South Dakota delegation for your support of 
funding for Standing Rock in the FY 2010 Department of Justice 
Appropriations bill for these types of services.
B. Impact of Operation Dakota Peacekeepers
    The 2008 surge had five goals: (1) reduce crime, (2) target illegal 
drug activities, (3) provide investigative resources to prosecute 
domestic violence, (4) provide investigate resources to prosecute 
crimes against children, and (5) develop a strategy to promote a safe 
community on the Reservation. In the first two months of the surge, BIA 
Police made 900 arrests on the reservation. The arrests overwhelmed our 
Tribal court and adult detention facility. The Tribal Court held 
arraignments seven days a week to catch up with the workload. The surge 
continued in diminishing numbers through the end of 2008.
    During the six months of the surge, our Tribal Court averaged 339 
arraignments per month and the number of complaints received by the BIA 
Police averaged 350 per month. By comparison, for the first six months 
of this year, we averaged 233 arraignments and 266 complaints per 
month. The goals of the temporary surge should be the goals of policing 
on our reservation every day. These goals are not being met. In fact, 
we are experiencing a rise in crimes including: domestic abuse; child 
neglect; minors possessing and consuming alcohol, and aggravated 
assault. This tells us that the larger police presence was a deterrent.
    Thus, if I am asked whether I support a return of the six-month 
surge on Standing Rock, I do, but I must request that if the BIA renews 
the surge, it must maintain existing staffing levels from the most 
underserved Reservations and BIA Police Districts, most of which are 
located in the Great Plains and Rocky Mountain Regions.
C. Failure of the BIA to Address Public Safety Staffing Needs
    It is troubling that the BIA cannot fill the 12 additional public 
safety officer positions added by the BIA to Standing Rock in 2008. In 
2009, Congress provided $255,077,000 for law enforcement services and 
in FY 2008 Congress provided $228,137,000 for the BIA's law enforcement 
program. This represents a $50,623,000 increase in the area of law 
enforcement in the last two fiscal years alone.
    It is unclear how the BIA allocated these increased resources among 
the BIA's six Office of Law Enforcement Services Districts. It appears 
to us that the BIA does not have a systematic methodology for 
distributing its public safety funds, including funds for detention 
officers and investigators. We do not understand why the BIA cannot 
rely on its own data to fairly distribute among the BIA OLES Districts 
the resources appropriated by Congress. The failure to have a 
distribution methodology, or to consistently implement it if a 
methodology is in place, is compounded by the fact that the BIA does 
not have a successful plan to recruit and retain public safety officers 
and related personnel required to address Indian Country's public 
safety needs. While we appreciate and are thankful for Operation Dakota 
Peacekeepers, we are not confident that temporary law enforcement 
staffing allocations--driven by crisis response--is the most effective 
solution to address long term law enforcement needs in Indian country.
    As a result of the data gathered from the last year's surge, the 
BIA increased the full-time BIA law enforcement positions at Standing 
Rock to twenty-five. The problem has been the BIA's failure to fill the 
12 additional positions it created. We still only have 13 public safety 
staff and we are losing one criminal investigator. As a result, we will 
have fewer public safety officers than we did last year prior to the 
surge. The BIA cites recruitment and retention challenges for failing 
to fill the available full-time positions. However, we remain 
frustrated that the BIA will only put officers on the street who have 
completed the Bureau's sixteen week training academy in Artesia, New 
Mexico. Even if we do find people willing to leave their families for 
four months, we understand there is a waiting list to get into the 
Academy at Artesia. Meanwhile, we are aware of number of fully-
accredited current or former State police officers who want to serve 
our community. Moreover, I am confident there are many war veterans 
coming home from Iraq and Afghanistan who are certified as Military 
Police, who want to again serve our community and who are well 
qualified to do so. Nevertheless, the BIA believes it can afford to 
ignore this pool of well qualified individuals when we and other 
reservations continue to experience a public safety crisis. This defies 
all logic.
    As Congress takes up S. 797 the Tribal Law and Order Act, we 
believe it is a priority that the flexibility for BIA officer training 
be maintained and enacted. However, we would also urge you to try and 
find an interim solution to this bureaucratic problem now. We suggest 
that the BIA send trainers from its Artesia academy to the Great Plains 
Region and provide classroom and field training to State-certified and 
former Military Police-trained officers now working for the BIA or 
interested in doing so, so that these individuals can patrol the 
Standing Rock Sioux Reservation and other reservations rather than be 
limited, as is now the case, to desk duty. We have encouraged the BIA 
to coordinate such training with the United Tribes Technical College 
(UTTC).
    While we believe addressing the BIA's excuse for the failure to 
fill the 12 public safety vacancies at Standing Rock is vital, we again 
believe that it is a fundamental failure for the BIA not to have or to 
successfully implement a methodology for the distribution of public 
safety funds. This problem is equally evident on the detention service 
side of public safety. It is our understanding that the BIA cannot 
report to the Interior Inspector General or to Congress how it 
allocated the millions of dollars it receives from Congress for the 
staffing, operation and maintenance of detention facilities in Indian 
country. Like law enforcement, the BIA again blames recruitment 
challenges for its staffing shortages in this area. In today's economy, 
this is simply unacceptable and a dereliction of duty by the BIA to the 
public safety needs of Indian communities.
    In short, the BIA has received more than $50 million more dollars 
in the last two fiscal years for its law enforcement program. The BIA 
should be able to provide Indian tribes and the Congress the answers to 
the following questions: (1) How many officers, telecommunication 
operators and criminal investigators did the BIA hire with this money? 
(2) How many completed training at the BIA Police Academy at Artesia? 
(3) How many are waiting for training? (4) Where were law enforcement 
personnel initially assigned by the BIA? (5) How many of those 
individuals are currently at their initial posts? (6) How many 
requested reassignment or left the BIA? and most important, (7) How did 
the BIA determine their placement? The same is true concerning 
information about correction officers and BIA funding for construction, 
operations and maintenance (O&M) of adult and juvenile detention 
services. To date, I am not aware of any such reports by the BIA to 
Congress or to Tribal leaders concerning these matters. I would urge 
that the Congress make the above-noted reports a mandatory annual 
requirement of the BIA.
D. Conclusion
    In conclusion, I reiterate the following recommendations to the 
BIA, many of which I included in my July 2008 testimony before the 
Committee. None of the following recommendations were acted on by the 
BIA last year. I ask for your help and the help of this Committee to 
direct the BIA to make them happen this year:

        1. The BIA should fill all public safety personnel vacancies at 
        Standing Rock immediately using detailed personnel so that the 
        BIA Police Department at Standing Rock operates at the full 
        staffing level of 25 public safety officers. Detailed personnel 
        can then rotate out from Standing Rock when the BIA has hired, 
        trained and housed full time replacement public safety 
        personnel at Standing Rock or as close to the reservation as 
        possible;

        2. Grant Special Law Enforcement Commissions to Tribal Game and 
        Fish Rangers so that they may lawfully respond to emergencies;

        3. Bring BIA Artersia Academy trainers to the Great Plains 
        Region to provide instruction to former State-accredited police 
        officers and Military Police personnel hired by the BIA, but 
        who have not gone through the BIA's 16-week training academy, 
        so that they may receive interim Indian country training and be 
        authorized by the BIA to patrol on Standing Rock;

        4. Install a centralized 911 call center on the Reservation, 
        and ensure that public safety personnel and Tribal Game and 
        Fish Rangers use identical communications equipment to 
        coordinate public safety activities;

        5. Provide construction funds to build on-reservation housing 
        for BIA public safety officers and renovate existing BIA police 
        facilities;

        6. establish a pilot program at Standing Rock this summer to 
        educate youth about staying out of trouble; encourage Tribal 
        members to pursue careers in law enforcement; and offer 
        recruitment incentives to Native Americans to join the BIA 
        Police academy.

    I am happy to answer any questions you may have. Thank you again 
for holding this hearing today.
                               Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Mr. Chairman, thank you very much. We 
appreciate your testimony and appreciate your hosting this 
hearing.
    Let me just say that the Indian Affairs Committee has 
similarly requested information from the BIA about accounting 
for how the money was used. We have not yet received that, and 
that is not acceptable to us. We will continue to press Mr. 
Ragsdale and others. They owe us that, and we intend to get it.
    So let me make a couple of comments and ask questions. The 
surge clearly was successful on this reservation. So we know 
what can work. The officers that were brought in from the surge 
are now gone. And my understanding is that we have had a dip in 
violent crime, although last month there were two homicides on 
this reservation, and there were four forcible rapes. When I 
look at the numbers, they are beginning to climb back up.
    I know that was not the case in February, March, April. But 
we are beginning to see again an escalation of violent crime. 
Mr. Chairman, is that your assessment? And I would ask the 
chief as well. But two homicides and four forcible rapes on a 
reservation this size in one month seems quite extraordinary.
    Mr. His Horse Is Thunder. Mr. Chairman, thank you for 
citing those statistics. We do believe, yes, that violent crime 
is on an increase again on this reservation. I question the 
Bureau's response to that, and especially since we are coming 
up on the 4th of July and there are going to be a number of 
celebrations on this reservation. And we know what happens 
during celebrations, there is going to be an increase.
    And I question the Bureau of Indian Affairs' delegation of 
their, or assignment of their police officers. Because I had 
been told that at least we had two canine units on this 
reservation, drugs are a problem, absolutely a problem, and 
they contribute to our--we have two canine units on this 
reservation and they have both been detailed to Mount Rushmore 
and the Black Hills. We need them here, especially during a 
time of celebration, a time when there is going to be more 
drugs on this reservation, I guarantee you. And to have those 
units off this reservation doesn't make any sense.
    The Chairman. Chief, my understanding was that drugs were 
targeting this organization, drug peddlers and organizations, 
and that the surge really drove most of that out. Are you 
beginning to be concerned about it coming back in? And answer 
if you would my inquiry about violent crime, two murders, or 
two homicides and four rapes in the month of May on a 
reservation this size does seem to me to be startling.
    Mr. Hayes. In regard to the homicides, that entailed a 
vehicle accident, and that is something that I think can be 
attributed to Operation Dakota Peacekeeper. Because we had a 
period of time where we were averaging a fatality every month, 
every month and a half, that type of a percentage. But then 
when Operation Dakota Peacekeeper came about, for approximately 
almost a year and a half we went without one fatality, no 
vehicle fatalities, throughout that whole period. And 
unfortunately, we did have one, we had this one and in another 
one we had two people who unfortunately died in a vehicle 
accident.
    The Chairman. But it is classified as homicide or 
manslaughter?
    Mr. Hayes. Yes.
    The Chairman. So is that vehicular homicide or 
manslaughter?
    Mr. Hayes. Correct.
    The Chairman. But is it the case of the BIA records 
showing, I would ask the other Chairs who are here, in this 
fiscal year, 92 crimes, 89 of them alcohol-related. In the last 
fiscal year, 195 crimes, 188 alcohol-related. Obviously there 
is a very close correlation between alcohol and criminal 
activity. Do you see that in your law enforcement work, I 
assume? That is what the BIA is reporting. Other Chairs, do you 
have observation about that? Most of the criminal activity is 
accompanied by either alcohol or drugs?
    Ms. Pearson. Yes. Drugs and alcohol play a big part in 
this. Someone mentioned earlier, our reservations are targeted 
by these drug pushers. I do know that there has been, we are 
watching for them, anyway, let's put it that way. I can't 
really give you specifics on it or anything on it. But it is 
something that we need to get off our reservations, and we 
don't have the people to keep these folks from coming in. Right 
now, the way our laws are, they can come there and they can do 
something, but we can't charge them in our courts, either. So 
we are prime ground for this.
    The Chairman. Let me ask, several of you have raised the 
issue of Artesia, the training program in New Mexico. It seems 
to me that we have a school or training program in Artesia that 
will take about 150 people a year and they graduate about half 
of that, 75 a year, for the tribal police force, which makes no 
sense at all. The BIA police force has a training facility that 
puts out 75 people a year, it has a 50 percent wash-out rate. 
One of the things we are trying to do, I just put the first 
funding in recently for United Tribes, we are trying to 
establish a BIA training center in the Northern Great Plains 
here at the United Tribes, because that serves North and South 
Dakota and about, I think 20 to 30 other tribes.
    So we are working on that. But it seems to me that Artesia 
just isn't working. You can't have 150 slots a year, graduate 
only 75 and believe that takes care of the training for the BIA 
law enforcement contingent. That is just not acceptable.
    Chairman His Horse Is Thunder, you indicated 9 suicides 
since January and 15 attempts. As you know, I sent some staff 
from the Indian Affairs Committee down to the reservation. We 
have been interviewing and talking to people, because we do 
have to begin to work with you and others to address that in a 
very aggressive way. Suicides come in clusters, and that is of 
great concern.
    I want to ask all of you, if I might, Senator Thune will 
remember that the U.S. Attorney from South Dakota was here the 
last time we held this hearing, I believe in August. I think he 
indicated he had assigned someone to this reservation, or 
assigned Assistant U.S. Attorneys to go to the reservations in 
South Dakota, which I think included this reservation, because 
it is on both sides of the border. The question is, does that 
relationship still exist with the U.S. Attorney's office? The 
reason that is important is, that is who is required to 
prosecute violent crimes, and we have this very high rate of 
declinations, declining to prosecute.
    Do you still have that relationship with the U.S. 
Attorney's office in South Dakota? And is there a similar 
relationship, do you have a presence on your reservations with 
the U.S. Attorney's office in North Dakota?
    Mr. His Horse Is Thunder. The U.S. Attorney from South 
Dakota who initiated that was Marty Jackley. I think he was the 
first one who actually had good relationships with tribes in 
South Dakota. The unfortunate thing with the change of 
administration is that Mr. Jackley is no longer there. So we 
will have to wait and see who is assigned to the U.S. 
Attorney's office for South Dakota and whether or not they will 
maintain that good relationship that we had.
    The North Dakota U.S. Attorney, on the other hand, has 
never set foot on this reservation that I am aware of, nor has 
he had a working relationship the same as Mr. Jackley tried to 
have with the tribes.
    Ms. Pearson. Well, our State's attorney, we have had visits 
from their office. I must say that even the judges came up and 
met with us in our headquarters.
    The Chairman. You are talking about the local State's 
attorney?
    Ms. Pearson. Yes. They want to work with us, and I am glad 
for that. But the only thing that disturbs me is that it 
depends on how you profile your cases before they would do 
anything. And that is sad. Because there are a lot of these 
that should be taken care of, and go on with that, you continue 
and people get the impression that, well, I can do it and I 
will get away with it.
    The Chairman. The U.S. Attorney's office, have they been 
present on your reservation?
    Ms. Pearson. They in fact brought Judge Erickson and Judge 
Palvey out to visit. I was very thankful.
    The Chairman. Chairman Marcellais?
    Mr. Marcellais. To the best of my knowledge, I don't 
believe the U.S. Attorney's office has been out to Turtle 
Mountain. But I would have to follow up on that.
    The Chairman. Mr. Packineau?
    Mr. Packineau. They have been, but not nearly enough. It 
would be nice to have a more visible presence, if he comes up, 
and le them know that we have support. It just takes a long 
time for anybody to get prosecuted and that is, like somebody 
else had said earlier, they take so long that a lot of times 
some of those don't even get prosecuted. Therefore, some people 
just give up.
    I want to touch on a question you asked earlier. You said 
that a lot of our, the alcohol-related, I think we need more 
money for addiction services. And especially in Fort Berthold, 
we need something for our juveniles. We have an increase in 
juvenile activity there, but a lot of times we cannot hold them 
or keep them. And if we do, we need somewhere where they can go 
to maybe get some services. A lot of it is mental services they 
probably need. Or maybe some addiction services also. But we 
don't have that right now. What we would like to do is get some 
money to maybe create some sort of regional juvenile center. It 
really needs to be done here in North Dakota. I am sure if it 
is happening in Fort Berthold, it is happening in the rest of 
the reservations.
    The Chairman. And your tribe is engaged in the self-
determination execution of law enforcement, is that correct? 
You are contracting for law enforcement?
    Mr. Packineau. Yes.
    The Chairman. And you also are having problems with that, I 
think you described the problems in your testimony.
    Mr. Packineau. Exactly, Senator. And it all goes back to 
the lack of money. We took it over because we were putting so 
much money into the program anyway. And it is not really 
getting any better. We would like to see more technical 
support. Especially, we are at a learning stage here, we need 
more technical support from the BIA and just a little bit more 
help to make that transition more complete.
    The Chairman. We are trying to do a couple of things. 
Number one, with the legislation that we want to get passed on 
law enforcement, we want to connect the local law enforcement 
folks, the States' attorneys and the county sheriffs, with the 
reservations and the tribal police and the reservation, the law 
enforcement apparatus. We want the U.S. Attorneys to have a 
better connection, because they are the ones that are going to 
have to prosecute the violent crimes. And there is a high rate 
of declining on those prosecutions.
    Again, I remember and was impressed by what the South 
Dakota U.S. Attorney had done, to actually assign Assistant 
attorneys to come to the reservations routinely, sit down, talk 
about things. That is exactly what should happen. My hope would 
be that would continue in South Dakota, and my hope is that it 
would begin in North Dakota, because that is very important.
    Let me call on Senator Thune for questions.
    Senator Thune. Thank you, Mr. Chairman.
    As Senator Dorgan mentioned, there are several things his 
bill, of which I am a co-sponsor and I think we have 17 
bipartisan co-sponsors for, the Tribal Law and Order Act of 
2009. It was put together, I think, with a lot of consultation 
from tribes and law enforcement, and trying to determine what 
some of these issues are that we need to be addressed to 
improve upon the public safety and law enforcement issues on 
the reservations. I hope we can get that through the Congress.
    There is also this Emergency Fund for Indian Safety and 
Health on which we worked a year ago as an authorization, 
Senator Dorgan in his position on the Appropriations Committee 
has some funding for that consistent with that authority to 
help beef up law enforcement on the reservations. So I would 
describe those as both sort of major initiatives that are 
designed to deal with the long-term problem. In the near-term, 
I last week contacted the BIA and then also the Interior 
Department just to suggest that they need to make sure that 
they got manpower and resources out here to keep up with what 
got started last year and what I think was very successful. You 
have all alluded to the progress that we made with the surge, 
with Operation Dakota Peacekeeper. And my fear is that if we 
don't sustain that commitment that we are going to reverse 
field and lose a lot of ground that has been made.
    So there are a number of things that we are working on that 
will address what I think many of you have alluded to as a 
manpower and resource issue and what BIA continues to tell us 
is something they need. So we are trying to address those 
issues.
    But I am particularly concerned about this public safety 
issue. Because to me, this is fundamental to everything else. 
You cannot have kids who learn in classrooms if they are 
worried about their safety. You cannot attract economic 
development or jobs to your communities if people are worried 
about public safety. So it is the predicate upon which 
everything else is based. We have to get this right. And I am 
interested in, Chairman His Horse Is Thunder, the correlation 
to suicides. Nine suicides since January, and 50 attempts? That 
is tragic, it is breathtaking when you think about that. I 
think that hearkens back to some degree, as you mentioned, to 
the absence of public safety. If people are worried about their 
security and fearful about their future, they are more inclined 
to take steps like that. But it is a statistic that really is, 
it is stunning, and it is something we just have to change.
    I think what I saw with the surge and with Operation Dakota 
Peacekeeper was a sort of a commitment to community policing 
and beef up law enforcement presence, people get more involved 
in addressing some of the smaller crime issues and those help 
prevent larger crime issues. So I just hope that we can get the 
BIA to continue to step up. I am struck by the statistics, as I 
look at these charges, of where the biggest needs are. And they 
are up here in the upper plains. So we have shortages in terms 
of law enforcement and the highest crime rates are in 
reservations here in the upper plains. And I think it directly 
correlates to the fact that we don't have enough manpower out 
here.
    A couple of quick questions. One, I want to come back to 
this training issue. I don't know, Mr. Chairman, if this is 
something that we can address. Is that a liability issue? Why 
is it that you can't take returning veterans who have 
experience as military police or other law enforcement 
experience and put those people to work on the reservations, 
rather than waiting for them to get into this line to get 
through the training facility down there, which sounds like it 
is backed up? There is a waiting line, we have this desperate 
need for more law enforcement officers and personnel on our 
reservations. Yet we can't get them through the training.
    I understand there are other issues with regard to 
retention and people out here, housing, all of which have to be 
addressed. But I can't imagine why we wouldn't be able to 
figure out a way to get people trained more quickly, so they 
can get out on the job. Many of you mentioned that in your 
testimony. I guess I am curious as to, is that an issue that 
BIA says that if they don't go through this particular training 
facility that there are liability issues that the BIA has to 
deal with? And how does that work with 638 contract law 
enforcement? Why can't we get around that?
    I think part of it is creating a second training facility 
up here where we can get more people in. But that shouldn't be 
a deterrent to us being able to get people out here and in 
positions. Anybody want to speak to that?
    Ms. Pearson. I would like to add something. I understand 
the qualifications that they require, but I guess I can't 
understand that either, because the people that come out of the 
military are trained. You have some of them that went through 
Quantico. What better training than that can you get?
    But at the same time, Artesia, we had an officer back home 
that was one week, I believe, away from completing his 
training. And because his mother died, he went home. And you 
have to start the course all over again. Didn't make sense. To 
me, I always say this, if that was my money, boy, I would spend 
it where it was supposed to be and I would have someone over to 
do something else. It is really crucial. I just don't think we 
need to go that far. And I hope you folks can go back and 
supported the United Tribes training center that they want to 
develop and open. Because I think we need it here.
    I did go to a graduation down in Artesia one time and I 
noticed that most of the graduates were from the upper plains, 
upper Midwest. They had 30 some of them come out of Pine Ridge 
alone. That is a lot. So you have most people that actually 
come from this part of the Country, but they have to go down 
there, and they are sitting down there for four months away 
from their families. These things like this cause family issues 
as well. Not only do they try to provide for their families, 
but it always takes away from their families, the sacrifices.
    Thank you.
    Mr. His Horse Is Thunder. Senator, on that point, I can't 
speak about the Bureau in terms of whether or not they believe 
it is a liability issue and that is why they have to go to 
Artesia. I do know this, I have been told a number of times 
that the only real difference between Artesia and State 
training, State-certified officers, is about a two-week course 
on Federal jurisdiction in Indian Country. That is about the 
only real difference, is that. So if you had State-certified 
officers that could go through a two-week training on 
jurisdiction in Indian Country, I think that should suffice.
    But you also asked another interesting question in terms of 
638 contracting, those tribes which 638 their police force. I 
know that The Three Affiliated Tribes, and I really don't want 
to speak out of turn, but Chairman Levings was here yesterday, 
and we were talking about 797. We were taking about it 
yesterday and he made an interesting comment. Chairman Levings 
said this. He said that when they 638'd their police force up 
there that there were a number of BIA officers who came over 
with the contract, who decided they would leave the BIA and 
they would stay with the tribe under the 638 contract.
    The Bureau said that those police officers weren't good 
enough. As soon as the tribes took it over, those police 
officers, a couple of them, I don't know how many of them, who 
were adequately trained for the BIA law enforcement office, 
when they transferred over to 638, somehow they weren't 
qualified. And the Bureau wouldn't allow them to maintain those 
officers under the 638 contract. That is crazy. So it doesn't, 
I think in a way that they were attempting to send a message to 
the rest of the tribes saying, don't 638, because we are going 
to make it hard for you.
    Senator Thune. That just seems like a terrible barrier, and 
one we ought to be able to get around. Mr. Chairman, I think 
some of these questions that Chairman His Horse Is Thunder 
raised about where BIA is allocating resources are really good 
questions. Because we have increased funding in the last few 
years, and where are they directing it? Because it is pretty 
clear to me that the biggest deficiencies in the number of law 
enforcement personnel are in these areas that are in the 
greatest need.
    Let me just ask one question of everyone here, if I can. We 
know the direct impacts of crime, theft, injury, those are 
pretty apparent. But I am wondering if you could speak to some 
of the indirect impacts that high rates of crime and poor 
public safety have on communities. I was visiting with the 
mayor of McLaughlin earlier today. I think when the surge was 
implemented, there was a lot of illegal drug activity going on 
in some of the communities. They were able to knock that out, 
which I understand now, and I think the Chief referenced this 
too, is starting to come back. But what are some of those 
indirect impacts of not having adequate public safety, 
notwithstanding, obviously, the direct impacts which we are all 
fairly aware of?
    Ms. Pearson. In my testimony, I explained there that we had 
a strategic plan done. In surveying the whole community at 
Spirit Lake, in all four districts, the number one concern was 
substance abuse. And we had like our law enforcement and stuff 
deliver issues to us. But from all the people that were 
surveyed, of the four districts, the number one concern was 
substance abuse.
    And I didn't get to read any of the surveys, I don't belong 
there, that is supposed to be confidential. But there are 
people that are willing to come forward and admit it. But 
again, they are afraid, because we don't have enough protection 
services for them. But it is a great concern, because it is 
involving their children and grandchildren. But they are scared 
to come forward. It has been a concern for many years. They 
have finally been able to put it on paper and get somebody's 
attention. And they have gotten our attention. Because I want 
to do something with that strategic plan.
    I do believe, Senator Dorgan, there might be a copy of that 
in your office. I believe I sent that. But it has a big impact 
on our community. And it is not only just the community, it is 
all ages of the community.
    Mr. Marcellais. First of all, the military, I keep saying, 
you have resources within the Federal Government that can be 
utilized. I think sharing resources between the military and 
the tribes, say, detailing MPs or whatever out to the 
reservations, they are in the military, they are government 
employees. Why can't they come out to the reservations and 
provide their services? I don't know if there is a shortage in 
the military for MPs, but that is a suggestion.
    The other thing, the impact, talking about the drugs, at 
one time we had three canine units up in Turtle Mountain, and I 
think we are down to one now. When we had three canine units, 
it didn't eliminate the drugs, but it cut them back. I think 
the other thing is, the drug traffickers know that reservations 
are limited or don't have enough law enforcement. So naturally, 
they are going to migrate to the reservations. Because there 
are a lot of police officers in other communities that are 
going to stop that. So that is my comment.
    Mr. Packineau. I just want to say that there is probably a 
rise in all areas of crime. But that is a direct result of the 
lack of funds to adequately supply enough officers in different 
areas. I know in Fort Berthold, we have six different 
districts. And in some of the districts, we only have one 
officer on duty for the whole segment. And that covers the 
rural areas, too, because we are rural up there. And everybody 
knows that police officer's schedule. So they know when he is 
sleeping, they know when he goes 20 miles out or wherever, and 
that is when the crime occurs. So we need just more money to do 
law enforcement, of course, you guys know that also.
    One other thing I was going to say, up in Fort Berthold, if 
we get a push on the county sheriffs to cross-deputize their 
law enforcement and our law enforcement, and of course, we are 
going to have to distinguish where their jurisdiction is and 
what it is, but it can be done. We have sat down, we have had 
State Highway Patrol come down, we have had many meetings. It 
seems like after one meeting, everybody says we are going to 
have another meeting, and it just never formulates.
    It would really help if we had cross-deputization. That 
would help our lack of officers. That would really help.
    And you were asking the question earlier about Artesia and 
what-not. It is BIA regulations, there we are. And again, BIA 
regulations, it is just more and more steps you have to follow 
and do, and that is why, BIA regulations. They have to follow 
the regulations.
    Senator Thune. This maybe, Mr. Chairman, the indirect 
impacts of lack of public safety, the question was the direct 
impacts, but just some of the indirect impacts.
    Mr. His Horse Is Thunder. One of the indirect impacts, you 
see the mayor of McLaughlin and a number of his council as 
well, that last year, for the first time, I met the mayor, and 
for the first time, I met his council. I think they were very 
pleased, both the Indian community felt safe and the non-Indian 
community felt safe. And I think as the numbers started to 
decrease with the surge, both communities, both Indian and non-
Indian communities, feel a little bit less safe. Feeling a 
little less safe escalates or brings back the tension, the 
racial tension that has always existed on the reservations.
    I think when you have good public safety, those racial 
tensions start to ease and we start to communicate with each 
other more readily. So if I could point to one indirect, that 
would be that the tensions are starting to increase again. 
Well, you see the mayor here, and he is amenable to having 
conversations on what we can do better. But that is one of the 
indirect effects of having less public safety.
    Senator Thune. Thank you, Mr. Chairman.
    The Chairman. What I would like to do is ask the mayor of 
McLaughlin, who is with us, to perhaps say a word, if you would 
give us your perspective. And I will ask the tribal judge, 
Judge Zuger, to give us his perspective. Then we will entertain 
a few minutes. If you will be brief, we would be glad to hear 
if you have a perspective on this. As I indicated, both Senator 
Thune and I have another schedule today, so we have to leave in 
a bit.
    So, the mayor of McLaughlin.

     STATEMENT OF HON. ARNOLD SCHOTT, MAYOR, McLAUGHLIN, SD

    Mr. Schott. Chairman Ron, Lieutenant Hayes, Special Agent 
Dave Barnes, all the BIA officers, I appreciate what you have 
done. Our community looks better, Senator Thune, Senator 
Dorgan.
    What Ron just said is the truth. We have come together a 
long way since last summer. I have a good council, very good 
council. We are working together. In fact, we had a cleanup, we 
combined, Fort Yates sent a few prisoners down to help clean 
up. We had a wonderful time. Both cities saved money by just 
cooperating and cleaning up.
    But I appreciate what you have done for our community plus 
Standing Rock. We have come a long way, we have a long way to 
go. Drugs is a very big issue. When the surge came, the drugs 
left. When the surge pulled out, they were back. And we need to 
work on that. These little kids, I see them, from my shop, that 
I am concerned about that have a whole life ahead of them, they 
are getting drugged. I am also the coroner of Corson County. 
Five suicides in the month of June. Dave Barnes and I have been 
at these suicides. And something has to be done. We have to get 
rid of alcohol and drugs. That is our main thing.
    As far as the city council and Lieutenant Hayes and Ron, we 
have come a long way and we are working together. We signed a 
form, they cooperate with us and we cooperate with them as far 
as the Indian and the white are concerned. And it has helped. 
But like everyone says, we need a lot more funding, we need 
police. Too big a reservation for these fellows. They have to 
be all over them. And like Ron said, they know, the people know 
where the BIA police are.
    So I appreciate what has been done. We need help. Thank you 
very much.
    The Chairman. Mr. Mayor, thank you very much.
    If you will give that to Judge Zuger, we would like to hear 
from Judge Zuger.

  STATEMENT OF HON. WILLIAM ZUGER, CHIEF JUDGE, STANDING ROCK 
                       SIOUX TRIBAL COURT

    Mr. Zuger. First of all, I want to amplify what has been 
said about the training in Artesia. In my conversations with 
the BIA here at the local level, they are superb to work with. 
There seems to be an arrogance at higher levels. The State 
training facilities are fine. The Federal training facilities 
are fine. Mr. His Horse Is Thunder's comment about the 
difference being two weeks in jurisdictional training is 
absolutely correct. My understanding is that Artesia is where 
it is because it was picked up as military surplus. It is 
physically very isolated. People I have talked to say that one 
of the primary problems is sending young people down there, 
they become homesick, they are completely out in the middle of 
nowhere. The State facility at BSC and United Tribes have put 
together a superb training programs.
    Secondly, what has not been addressed here, and I would 
like to address that point, is the jurisdiction over criminal 
offenses is inadequate. I will give you one example that has 
not been mentioned yet, is white on Indian crimes. The State 
does not have jurisdiction. The U.S. Attorney's office is 
isolated up in Bismarck. There needs to be State jurisdiction 
over non-Indians who commit crimes against Indians.
    The Chairman. As a tribal judge, again, I am asking this 
question because I was so impressed with what South Dakota did, 
have you had contact with the U.S. Attorney's office? Are they 
coming down here? Are they connected at all? Because they have 
responsibility.
    Mr. Zuger. The only contact I have had was with Marty 
Jackley, who was superb. Drew Wrigley has a terminal attitude 
problem. We have not had any significant cooperation. We have 
had to dismiss numerous rapes, because we can't get the rape 
kits back. The Federal Government takes them and we can't get 
them back and we end up having to dismiss.
    The Chairman. Dismissing rape charges because you can't get 
the rape kit back?
    Mr. Zuger. Yes. The FBI takes the rape kit and we can't get 
it back. So we end up, we have our prosecutor here too, if you 
want to talk to him. I think he can verify this. We can't even 
do a tribal prosecution, because they have the evidence, we 
can't get it back.
    The Chairman. On that point, they have the evidence, they 
decline to prosecute, but they won't give you the evidence?
    Mr. Zuger. Either they decline or they just don't get 
around to it. It is one or the other, Senator Dorgan.
    Then we have another problem, in the event they decide to 
do another surge, and that is, I got a call last night from 
Titus White Body, our shift supervisor. We had people who were 
scheduled for delayed check-in. We have a capacity of 48 in the 
jail. We had 80 people in there as of 8:30 last night. We have 
a number of people up at the regional facility up at Rugby. We 
simply don't have a place to put them if we arrest them.
    Then finally, I know the two of you have to leave, I want 
to address support facilities. They say in real estate, 
location, location, location. In tribal crime, it is alcohol, 
alcohol, alcohol. And I understand there is a meth problem as 
well. Ninety-nine percent of our problems are alcohol. We have 
no place to have any meaningful treatment.
    I had a gentleman who we sentenced to a very long term. And 
he began to cry, and he said, thank you, this is going to give 
me a chance to try to get this monkey off my back. We do not 
have facilities to treat these people. We have to try to work 
with the States. North Dakota has a more comprehensive human 
services budget. We have an easier time in North Dakota. But we 
need a place for people to get some alcohol treatment. Those 
are the things I wanted to address, Senator Dorgan and Senator 
Thune.
    The Chairman. Would you be willing to put together some 
anecdotal evidence of that for Senator Thune and myself and for 
our Committee, so that we can follow through on that?
    Mr. Zuger. Yes, and I would fax it to Mr. Harte. I made the 
mistake of sending something first class last year, and 
apparently the anthrax check greatly delayed its receipt.
    [Laughter.]
    The Chairman. I appreciate that.
    On the issue of law enforcement training, I put in just a 
half a million dollars now that is going to be on its way to 
the United States to start this process. Because what we want 
to do is create a second Artesia to be on the northern great 
plains. United Tribes is a perfect place for it. It is the 
right location, the right facility. It is a combination of 
some, how many tribes, David?
    Mr. Gipp. Sometimes up to 70.
    The Chairman. And 20 to 30 States. So we are going to work, 
all of us in the northern plains are going to work to make this 
happen, because the current system is not functional. It is not 
solving the needs.
    I think what I would like to do is ask if we can have David 
Gipp say a word about that as we try to wrap up. David Gipp, as 
you know, is President of the United Tribes Technical College 
and I think does a great job for all of us.

STATEMENT OF DAVID M. GIPP, PRESIDENT, UNITED TRIBES TECHNICAL 
                            COLLEGE

    Mr. Gipp. Thank you, Senator. Senator Thune, Senator Dorgan 
and all the tribal officials that are here.
    It is a paramount issue, as you well know. And we look 
forward to doing what we can to provide any kind of training. 
We have done law enforcement training, in fact, for nearly 40 
years. We do a certified program already that is post-board, 
recognized by the State of North Dakota.
    We now have in place, after seven years of negotiation, or 
awaiting, I should say, an MOU with the Bureau of Indian 
Affairs on cooperation between ourselves and Artesia. It isn't 
quite what we want at this point in time, but it is a 
beginning, in which we allow for some specialized training to 
begin to occur on our campus in association with Artesia. So it 
is a step in the right direction. But it is hardly yet at home 
base. We think that much, much more can be done at this point.
    So we appreciate the efforts of the U.S. Congress to 
provide some additional assistance to augment the very training 
that you talked about. Because we think that basic law 
enforcement training could and should be done on the northern 
plains. And we can serve anywhere from a minimum of 20 to up to 
70 different tribes. That is the part of our history in the 
past 40 years that we have been in service.
    I just want to add one additional point to the legislation 
that you are looking at on reform in Indian Country for law 
enforcement. That is, the question was asked by Senator Thune 
about training and what additional things and steps that could 
be done. I would hope that the Congress would look very clearly 
at why Artesia is in fact the lock-gate for those who enter 
into law enforcement on our reservations. It is the last 
vestige of what I call colonial rule over tribes. Because they 
control who can and can't provide law enforcement on our tribal 
nations' reservations. They have that locked up by authority 
through their CFRs. I believe it is even ensconced perhaps in 
law or through appropriations itself. So Congress needs to 
examine that.
    The second thing that I would hope Congress looks at is the 
issue of allowing and assuring that tribes have the right to 
determine the standards and the accreditation that they need 
for their own people. That is the real fundamental issue that 
they need to have, is a clarification of that authority. 
Because they do have it. The unfortunate thing is that they get 
lockstep with Bureau of Indian Affairs rules and regulations, 
and even Quantico, as far as that goes. Much of those kinds of 
things are not tailored to the needs of Indian tribes and 
tribal nations.
    So I hope you will look at that authority more closely and 
assure that tribes can and will be able to carry out those 
functions in a way that the research and those kinds of things 
that need to be done can be done by us and others within Indian 
Country.
    The Chairman. That is a very important point. I also want 
to say that there needs to be minimum standards. Because in 
order for a tribal police force to access the criminal data 
base and do the things that are necessary to integrate in with 
other law enforcement, there needs to be minimum standards. We 
could not have 500 separate tribal government standards that 
don't respect minimum standards in order to be integrated into 
the system.
    Mr. Gipp. I agree with you, Senator. What I think Congress 
should do is enable tribes to be able to develop those 
standards, though. That is what I am getting at.
    [The prepared statement of Mr. Gipp follows:]

Prepared Statement of David M. Gipp, President, United Tribes Technical 
                                College
    This testimony is submitted for the record in the above entitled 
hearing. I want to thank Senator Byron Dorgan for holding the hearing 
within the boundaries of the Standing Rock Nation, of which I am a 
citizen. As stated at the hearing, I want to reiterate my support for a 
Northern Plains Law Enforcement Academy located at Bismarck at United 
Tribes Technical College, and I thank you again for your support for 
this issue.
    But also, I want to emphasize that one essential component to law 
enforcement in Indian country, and I believe a lesson that continues to 
be learned from efforts like Operation Dakota Peacekeeper, is that 
Tribal governments should be empowered and be provided the resources by 
the legislation to develop their own principles and values for law 
enforcement and law enforcement training that meet all appropriate 
federal law and standards.
    Several studies have shown that tribal sovereignty works to assist 
in tribal economic development and to benefit tribal citizens. The same 
is true for any aspect of self-government. Ensuring that Tribal 
governments have the flexibility to progressively evolve based upon 
local community ideals is the cornerstone of community policing 
philosophy. This, of course, is not inconsistent with federal standards 
and serves to advance tribal sovereignty and the ability of Tribes to 
govern themselves.
    The reasons to promote community based law enforcement programs in 
Indian country are several--among others:

        1) Tribes often have different legal systems than the U.S. and 
        states;

        2) there are different jurisdictional aspects to law 
        enforcement in Indian country;

        3) there are often different tribal cultural norms for law 
        enforcement efforts; and

        4) there are often different tribal standards for application 
        of criminal laws and resolving disputes.

    In my view, the unique nature of Indian communities requires an 
approach to policing that promotes ``Contemporary Policing with 
Traditional Values''. Thus, it is preferable for tribes to maintain 
their distinct identity and promote their culture and values while 
complying with general accepted principles of law enforcement. This 
philosophy can be attained and will be promoted by the United Tribes 
Technical College as we seek to develop educational and training 
programs that help tribes realize safer communities through the 
implementation of modern policing and effective policing techniques. 
For example, the Navajo Nation has its own law enforcement academy for 
Tribal law enforcement officers. Their officers police with an 
understanding of the tribe's unique customs and expectations.
    This is the goal of the Northern Plains Law Enforcement Training 
Center that we envision for the campus of United Tribes Technical 
College. This effort can, in the end, provide the kind of law 
enforcement officer well-versed in tribal policing that is so much 
needed on the Standing Rock Reservation and on many other reservations 
throughout the upper Great Plains, and throughout Indian country.
    Tribes now have the capacity and leadership to take on this 
essential task. The legislation you have proposed in S. 797 goes a long 
way to help Tribes meet these goals. My preference is that the 
legislation should empower Tribal Nations to continue to improve the 
self-government effort began under the Indian Reorganization Act of 
1934. Specifically, in Title III, Section 301(a), which amends Title 25 
United States Code, Section 2802(e)(1), I would rewrite the new 
subsection (A) of Section 2802(e)(1) as follows (new language is 
italicized):
    (A) The Secretary shall, in consultation with federally recognized 
Indian tribes, establish appropriate standards of education, 
experience, training, and other relevant qualifications for law 
enforcement personnel of the Division of Law Enforcement Services who 
are charged with law enforcement responsibilities pursuant to section 
2803 of this title, and shall recognize as fulfilling the requirements 
of this subsection the standards of education, experience, training and 
other relevant qualifications for law enforcement personnel as 
developed by any federally recognized Indian tribe that meet the 
relevant Peace Officer Standards and Training.
    These changes basically incorporate the recognition of tribal 
standards of law enforcement training that are so essential to 
effective law enforcement in Indian country. The standards Tribes might 
develop are not intended to reduce the standard of training required, 
but are instead meant to enhance that training to make it relevant to 
law enforcement efforts in Indian country.
    As always, Senator, on behalf of the United Tribes Technical 
College community, I want to thank you for your work in Indian country 
and on the Senate Committee on Indian Affairs. Please feel free to 
contact me if you have any questions about this testimony.
Attachment
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. A couple of additional folks, then we are 
going to have to wrap up.

STATEMENT OF DANIELLE YONON, DIRECTOR OF RESOURCE DEVELOPMENT, 
              GRAND RIVER AREA BOYS AND GIRLS CLUB

    Ms. Yonon. Thank you. My name is Danielle Yonon. I am the 
Director of Resource Development for the Boys and Girls Club of 
the Grand River area. We operate in three sites on Standing 
Rock. We are not a tribal program, but a community-based 
program. Last year, we had 514 enrolled children and youth.
    I think to this discussion and consultation, policing and 
law enforcement is key for a safe community. But creating a 
safe community is also prevention. And an ounce of prevention 
equals a pound of cure. Our agency is focused totally on youth 
development. With the recent tragedies, the epicenter was at 
McLaughlin. Seven of the nine suicides directly affected and 
impacted our club, our staff, our children.
    And I think in this discussion, there also has to be a 
human face and a human reality put on that tragedy and the cost 
and the toll that it has taken in our community. One of our 
staff members was also one of the seven. The youngest was 13. 
We were able to bring in someone to do the emergency and grief 
counseling with our staff. If we weren't able to do that, that 
kind of tragedy would cripple our organization.
    There is an immediate need and there is a gap in services 
with that. On the second suicide, there was a community healing 
ceremony. We are taking the children over. Some of the children 
walked and 17 of the children discovered the third suicide.
    Those children, after a week we realized there was a 
coordinated response to it. They went to the school, the school 
wouldn't let them in, because prayer isn't allowed in school. 
After a week, it was our staff who realized that 14 of the 17 
children were at the club and nobody had talked to them. They 
had not received any kind of professional counseling or help. 
We were able to meet that need.
    Our response to it, that there has to be a strategic, 
systematic plan and approach to deal with the youth 
development, not only to those immediate tragedies, but for the 
long-term prevention.
    The Chairman. Let me thank you for your work, and to say 
that the Boys and Girls Club is extraordinary.
    Ms. Yonon. I do have a recommendation.
    The Chairman. All right, please.
    Ms. Yonon. My recommendation is that, without the 
investment in the children and youth, you are going to be 
coming back next year and in 10 years talking about the same 
issue. If the investment had been made 20, 30 years ago, the 
magnitude of the problem might not be as big as it is now. The 
investment wasn't made. Youth development, tribal youth 
development requires a single source funding protected by 
Federal legislation, much like Head Start. That kind of 
investment and protection is going to provide prevention and 
the development that the communities need. That would be my 
recommendation.
    We have some work done on that. We can provide that. We 
have worked with the tribal chairmen. There are things we can 
provide to support that kind of thing. But that is my 
recommendation. And these kids, the kids that we work for and 
the families that we work for, this is their voice. Without a 
champion, without someone to stand up and say that this needs 
to be done, it is not going to change.
    The Chairman. The legislation that we have talked about 
this morning, that Senator Thune and I have worked on is S. 
797. It has two programs for youth in it. One is a SAHMSA 
program, the other is Department of Justice, in order to 
provide a funding stream for youth programs. I totally agree 
with you and understand the urgency of it. As you know, I have 
held three hearings on teen suicide on Indian reservations. We 
are continuing to work on this.
    I sent a staff person down three weeks ago to this 
reservation. We are now going through what the mayor of 
McLaughlin and others of you have described to try to see what 
we can do here to begin to address this. It seems to me a 
cluster has developed that we have to address. Your 
recommendations are certainly important.
    John Harte, from my staff, who is the policy director of 
the Indian Affairs Committee, will remain here after this 
hearing is completed to meet with any of you and all of you. He 
has some time. So I regret that Senator Thune and I have other 
schedules. I am going to have to leave in a bit.
    We do have Michael Jandreau, Chairman of the Lower Brule 
Sioux Tribe, who wishes to say a word.
    I would like to ask your cooperation, however, because both 
of us have to leave. If you will just be very brief. We 
appreciate very much, Mr. Chairman, your being here as well.

  STATEMENT OF MICHAEL JANDREAU, CHAIRMAN, LOWER BRULE SIOUX 
                             TRIBE

    Mr. Jandreau. Thank you very much for giving me the 
opportunity to speak with you.
    I agree pretty much with all the testimony that you have 
heard here. I would like to address the fact that we haven't 
had a facility at Lower Brule for three or four years now. We 
have not been able to staff that facility because of 
restrictions that seem to be there. We have passed action to 
allow and to request that anyone qualified would be considered 
to be hired by the BIA, regardless of what their ethnicity is.
    We have had to tribally hire people who meet the standards 
who are not Indian people. And we have been tempted to get them 
hired by the Bureau of Indian Affairs, and we have found them 
to be rejected by the Bureau, even though they qualify, they 
wish to be employed there and we just need the service to deal 
with a complex such as we have. Without full staffing, full 
qualified staffing to meet the standards, regardless of their 
ethnicity, they must be allowed that opportunity if we are 
going to succeed. The process of culturally sensitizing these 
people, however, is our responsibility.
    Thank you.
    The Chairman. Would you be willing, with your tribal 
council, to put together a statement about the specifics of 
what you have just described and send to my Committee, myself 
and Senator Thune?
    Mr. Jandreau. Sure.
    The Chairman. Thank you very much.
    And finally, the last word.

STATEMENT OF VALERIE HILL, ENROLLED MEMBER, STANDING ROCK SIOUX 
                             TRIBE

    Ms. Hill. [Greeting in native tongue.] My name is Valerie 
Hill. I am an enrolled member of the Standing Rock Sioux Tribe.
    I am here, I have been to several of the times you have 
been coming to our reservation, Standing Rock, to hear what is 
going on. During the last three or four times, I have heard 
someone from Congress coming down to the tribal building to 
hear the common people, me. The common people that don't have 
jobs, that don't get paid by the Federal Government. We are 
never heard, our issues are never heard.
    I would like for some time for you or someone from 
Congress, Senate, to come down and listen to the people, the 
common people. Because we don't get paid to say all these nice 
things that you heard. We want to tell you the truth about what 
is going on here on our reservation. My hat is off to all these 
police officers here. Because when you had that big surge, it 
destroyed the respect that our officers once had by bringing in 
other officers.
    You talk about how successful it was. What you did was get 
the people that smoke, not the people that sell, not the people 
that manufacture. They were still in operation during that 
whole surge. They are still in operation today. The only people 
that got arrested were the ones that use. The people that make 
it never even got touched, because they are non-native. Just 
like Judge Zuger said, when it comes to our tribe, our 
reservation, we are not protected from the non-native. I had to 
go to court, and I had to stop going to ceremonies, I couldn't 
go to the tribal building, I couldn't go to the courthouse, I 
couldn't go nowhere, because a non-native took me to court in 
my court, tribal court. That is wrong.
    When I asked, well, where do I take her, where can I take 
her, our own judge told us, bring it back here. Little do they 
know, they don't have jurisdiction over non-natives.
    There is a lot of things that are going on, our landowners, 
you have the landowner program, Congress approved the landowner 
payment to landowners, 40 acres or more. I got a list of that, 
as passed all around through Standing Rock. Lot of people on 
that list that didn't even own 40 acres. Lot of people that 
didn't even live down there. A lot of people that weren't even 
60. Some of them lost over 1,000 acres and only got $20,000. 
Others got 31 acres and got $40,000.
    This landowner stuff, and they are going to be sending 
another one. The Dorgan bill, I just got a piece of paper a 
couple days ago about the Dorgan bill. You read that Dorgan 
bill, again, the landowners are left out.
    And you know, most of these landowners are full blood. 
Treaties were signed with full blood.
    The Chairman. What is the Dorgan bill?
    Ms. Hill. It is from Mike Watson, whoever, engineering, 
through Everett Iron Eyes, Senior, to Chase Iron Eyes, and it 
is a draft Dorgan bill. And it deals with landowners, our 
landowner issues here on Standing Rock, supposedly the 
landowner issues. But if you read this, there is nothing in 
there for the landowner.
    These are issues that we, the people, would like for you to 
hear, because our council don't hear us. Thank you, Senator 
Dorgan, and I will respect the people here. Thank you.
    The Chairman. I am not aware of the Dorgan bill, but I will 
be very interested in learning what I am doing.
    [Laughter.]
    The Chairman. Let me say one thing to you, if I might. 
First of all, you spoke your piece and I appreciate that. That 
is part of the reason Senator Thune and I come here. And we 
have on other occasions, you talked about hearing the people, I 
have been on this reservation and I have met with high school 
students at my request, and I was the only adult in the room, 
just to talk to them about their lives.
    You don't know about that, because I didn't tell you and 
the press doesn't know about it, because I didn't tell them. I 
just came down here and sat down with a bunch of teenagers, 
just myself, to say, tell me about your lives, tell me what is 
going on. One of the reasons I did that is because this suicide 
situation is unbelievably staggering. We have to fix it. We 
have to find a way to deal with it.
    So I appreciate the work that all of you are doing. I 
appreciate you speaking your piece today. That is part of what 
this is for. I really appreciate your work with kids, I mean, 
that is the Lord's work. I appreciate the leadership of these 
tribes trying to do the best job they can. And we are going to 
work as hard as we can to try to address these issues.
    Senator Thune said it very well: much of what is important 
in our lives starts with public safety. If you don't feel safe, 
if you feel threatened, the rest of your life is very 
difficult. We need to make sure there is a level of public 
safety on Indian reservations that most Americans take for 
granted. They wake up every day and take for granted there is a 
police officer out there protecting them. That has not been the 
case on Indian reservations.
    Let me finally say to those who are standing here with 
their uniforms on, thanks for your work. You work in the dark 
and the midnight hours and all day long, and we thank you.
    [Applause.]
    The Chairman. We too often take you for granted, but all of 
us care a great deal about what you do. You risk yourselves and 
your lives to provide for the public safety.
    Senator Thune, thank you for joining me today, and to the 
tribal chairs who have testified and tribal council member 
Packineau, thank you very much.
    Let me again say to all of you that John Harte, who is the 
Policy Director of the Indian Affairs Committee, is going to 
stay for a bit. If you have issues you want to visit with John 
about.
    Let me finally say, as the Chairman of the Indian Affairs 
Committee, we will continue to work on this issue, continue to 
work with Senator Thune and others to try to make progress. 
This hearing is adjourned.
    [Whereupon, the hearing was concluded.]
                            A P P E N D I X

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
 Prepared Statement of Theresa Two Bulls, President, Oglala Sioux Tribe
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Prepared Statement of Crow Creek Sioux Tribal Council Members: Randy 
      Shields, Sr., Thomas Thompson, Sr. and Norman Thompson, Sr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre></body></html>
